Report No. D-2007-078                April 9, 2007




  Audit Practices for the C-17 Globemaster III
       Sustainment Partnership Contract
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
AFAA                  Air Force Audit Agency
ANSI                  American National Standard Institute
CLIN                  Contract Line Item
IG                    Inspector General
EIA                   Electronic Industries Alliance
EVM                   Earned Value Management
FAR                   Federal Acquisition Regulation
GSP                   Globemaster III Sustainment Partnership
                Department of Defense Office of Inspector General
Report No. D-2007-078                                                         April 9, 2007
   (Project No. D2006-D000CK-0231.000)

                Award Practices for the C-17 Globemaster III
                    Sustainment Partnership Contract

                                 Executive Summary

Who Should Read This Report and Why? Acquisition, contracting, and logistics
personnel within DoD and the Military Departments should read this report because it
concerns acquisition decisions on the long-term sustainment of the C-17 Globemaster III
that might be similar to problems with other programs.

Allegations. This audit was initiated in response to two Defense Hotline allegations.
One allegation claimed that the C-17 program officials provided inaccurate and
misleading information to the Secretary of the Air Force, leading to a misinformed
decision to award the $4.9 billion Globemaster III Sustainment Partnership contract to
The Boeing Company. An additional allegation claimed that the C-17 program officials
took action to prevent the formulation of information that may have contradicted the
reasonableness of the Globemaster III Sustainment Partnership negotiated price. See
Appendix B for more details on the allegations and the audit results.

Background. The C-17 is a jet-powered strategic airlifter with a cabin offering large-
volume capacity and a rear-loading assembly to accommodate wheeled or tracked
vehicles. The aircraft was designed to airlift and airdrop loads, including armored
vehicles, directly into a combat zone. It was developed by McDonnell Douglas
Corporation, a wholly owned subsidiary of The Boeing Company.

The Air Force reached a negotiated agreement with McDonnell Douglas Corporation to
sustain the fleet of C-17 aircraft on November 25, 2003, in the amount of $4.9 billion for
FY 2004–FY 2008. However, the contract was not definitized until July 22, 2004. Prior
to contract definitization, C-17 program officials took action to revalidate the negotiated
contract to ensure the price was still fair and reasonable.

Results. We did not substantiate the allegations. However, the C-17 program officials’
decision to definitize the C-17 Globemaster III Sustainment Partnership contract was
based on a revalidation effort that may have produced unreliable results. In addition,
C-17 contracting officials continue to exercise priced options based, in part, on the results
of the revalidation effort. As a result, the Air Force may not have achieved the best price
for the Government when it awarded the C-17 sustainment contract, valued at $4.9 billion
(of which $3.2 billion was fixed-priced). Moreover, the Air Force cannot ensure that
exercising priced options at the original negotiated prices are most advantageous to the
Government.
Management Comments. The Assistant Secretary of the Air Force (Acquisition) did
not fully agree with all of the findings in the report; however, the Assistant Secretary
fully concurred with the recommendations, and stated that the C-17 program officials
will:

       •   conduct and thoroughly document analysis performed to support the
           determination of price reasonableness in accordance with regulatory
           requirements before exercising priced option year FY 2008,

       •   require that the contractor provide certified cost or pricing data to support the
           FY 2009–FY 2011 priced proposal in accordance with Federal Acquisition
           Regulation 15.403-4, and

       •   request that the Defense Contract Audit Agency perform a pre-award audit to
           support determination of the price reasonableness for the FY 2009–FY 2011
           contractor’s proposal prior to the FY 2009 contract option.

The Assistant Secretary of the Air Force (Acquisition) also stated that the Defense
Contract Audit Agency agreed to consider expanding the current post-award audit to
address the concerns of this audit report. The Air Force comments are responsive and
meet the intent of the recommendation. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                           ii

Background                                  1

Objective                                   1

Finding
     Revalidation of Price Reasonableness    2

Appendixes
     A. Scope and Methodology               12
         Prior Coverage                     12
     B. Defense Hotline Allegations         14
     C. Report Distribution                 15


Management Comments
     Department of the Air Force            17
Background
           This audit was initiated in response to two Defense Hotline allegations. One
           allegation claimed that C-17 program officials provided inaccurate and
           misleading information to the Secretary of the Air Force, leading to a
           misinformed decision to formally award the $4.9 billion Globemaster III
           Sustainment Partnership (GSP) contract to The Boeing Company (Boeing). An
           additional allegation claimed that C-17 program officials took action to prevent
           the formulation of information that may have contradicted the reasonableness of
           the GSP negotiated price. See Appendix B for more details on the allegations and
           the audit results.

           The C-17 is a jet-powered strategic airlifter with a cabin offering large-volume
           capacity and a rear-loading assembly to accommodate wheeled or tracked
           vehicles. The aircraft was designed to airlift and airdrop loads, including armored
           vehicles, directly into a combat zone. It was developed by McDonnell Douglas
           Corporation, a wholly owned subsidiary of Boeing.

           The Air Force reached a negotiated agreement with McDonnell Douglas
           Corporation to sustain the fleet of C-17 aircraft on November 25, 2003, in the
           amount of $4.9 billion for FY 2004–FY 2008. 1 However, the contract was not
           definitized until July 22, 2004. Prior to contract definitization, C-17 program
           officials took action to revalidate the negotiated price to ensure the price was still
           fair and reasonable.

           The C-17 program office is located at Wright-Patterson Air Force Base, Ohio.


Objective
           The audit was performed in response to allegations to the Defense Hotline
           concerning procedural and contractual inaccuracies in the C-17 GSP contract
           negotiations. The overall audit objective was to determine whether the C-17 GSP
           contract negotiations and award were conducted in accordance with the Federal
           Acquisition Regulation (FAR). See Appendix A for a discussion of the scope and
           methodology and prior coverage related to the objective.




1
    The contract base price year was FY 2004, priced option years were FY 2005–FY 2008, and unpriced
    option years were FY 2009–FY 2011.



                                                    1
           Revalidation of Price Reasonableness
           We did not substantiate the allegations. However, the C-17 program
           officials’ decision to definitize the C-17 Globemaster III Sustainment
           Partnership contract was based on a revalidation effort that may have
           produced unreliable results. In addition, C-17 contracting officials
           continue to exercise priced options based, in part, on the results of the
           revalidation effort.

           The revalidation effort may have produced unreliable results because
           program officials inappropriately included an earned value management
           (EVM) approach for revalidating the reasonableness of the negotiated
           fixed-price costs prior to definitization. In addition, program officials did
           not sufficiently investigate available data prepared by others that did not
           agree with program office-prepared data and that may not have supported
           the program office plan to definitize the originally negotiated contract
           price.

           As a result, the Air Force may not have achieved the best price for the
           Government when it definitized the C-17 sustainment contract, valued at
           $4.9 billion (of which $3.2 billion was fixed-priced). Moreover, the Air
           Force cannot ensure that exercising priced options at the original
           negotiated prices are most advantageous to the Government.


C-17 Letter Contract
    The Air Force and Boeing began a collaborative Integrated Process Team in
    July 2002 to establish pricing for the FY 2004–FY 2008 sustainment of the C-17
    fleet. The Integrated Process Team goal was to award a fully definitive FY 2004–
    FY 2008 contract by October 1, 2003. The Secretary of the Air Force approved
    the long-term sustainment plan for the C-17, but specified that Boeing must be
    required by contract to provide for significantly increased support by partnering
    the C-17 workload with the Air Force Air Logistics Centers. Contract
    negotiations were suspended in order to consider how to accomplish the new
    requirement. A letter contract was issued for the period October 1, 2003, through
    December 31, 2003, based on the terms and conditions already agreed to as a
    result of discussions to date. The Air Force reached a negotiated agreement with
    Boeing on November 25, 2003, in the amount of $4.9 billion for FY 2004–
    FY 2008. Senior Air Force leadership delayed definitization because Congress
    was in recess and because of concerns about the ongoing investigations into
    misconduct by Boeing and former Air Force acquisition personnel. As a result,
    the letter contract was extended through February 29, 2004. On January 23,
    2004, the Secretary of the Air Force directed that the contract definitization be
    delayed an additional 6 months because of the continuing DoD investigation into
    improper Boeing and Air Force business activities. The letter contract was
    extended again through September 30, 2004. The period of performance under
    the letter contract now spanned all of FY 2004. The directed delay caused the
    C-17 program office to consider its options for definitizing the letter contract and
    establishing FY 2005–FY 2008 options.


                                         2
          Options for Definitizing C-17 Contract. Before definitizing the C-17 GSP
          contract, C-17 program officials conducted a series of discussions with senior
          subject matter experts at the Aeronautical Systems Center, as well as outside the
          Center, to consider options for definitizing the letter contract and establishing the
          FY 2005–FY 2008 options. C-17 program officials agreed to conduct an
          assessment of the original proposal’s estimating methodologies and cost and
          pricing data before deciding on one of the following:

                   •   finalize the existing proposal and negotiated agreement dated
                       November 25, 2003; or

                   •   set aside the November 25, 2003, agreement and have the contractor
                       update its proposal to reflect actual performance and re-engage the
                       Integrated Process Team pricing process to renegotiate the entire
                       $4.9 billion business arrangement.

          C-17 program officials referred to the assessment as a revalidation of the
          negotiated contract price.


Revalidation Effort
          C-17 program officials’ decision to definitize the C-17 Globemaster III
          Sustainment Partnership contract was based on a revalidation effort that may have
          produced unreliable results.

          Program Office Analysis. The revalidation effort may have produced unreliable
          results because program officials inappropriately included an EVM approach to
          revalidating the reasonableness of the fixed-priced contract costs prior to
          definitization. C-17 program officials used actual cost data from Boeing and
          applied EVM formulas to the data to assess the fairness and reasonableness of the
          fixed-price contract costs. 2 EVM requires the use of formulas and measures
          performance by objectively assessing progress. The results from those
          assessments provide the program manager with information on contractor
          performance and contract progress.

          The C-17 program office analysis indicated that the fixed-price labor costs (part
          of contract line item [CLIN] 0001) at the end of FY 2004 were estimated to be
          about $10 million, or five percent below the $211 million negotiated value for
          labor costs. The C-17 program office analysis was based on 8 months of actual
          FY 2004 data, which were used to project costs for the remaining 4 months in
          FY 2004 and resulted in a projected $10 million underrun. The analysis attributed
          the $10 million underrun to the labor portion of the fixed costs.




2
    The program office assessment also considered Defense Contract Audit Agency’s data assessment, a
    Defense Contract Management Agency assessment of Boeing’s EVM system, and customer satisfaction
    ratings.



                                                   3
                                           Program Office Analysis 3

                                        Fixed-Price Labor Costs           Fixed-Price Contract Cost
                                             (CLIN 0001                         (CLIN 0001
                                         Boeing Direct Labor)                Subcontract Costs)
       Negotiated target cost                 $211,000,000                       $201,000,000


        Projected actual cost                 $201,000,000                       $201,000,000


      Projected dollar variance                $10,000,000                              0
              (underrun)
        Percentage variance                      5 percent                              0
             (underrun)


           Earned Value Management Guidance. EVM implementation and use is
           governed by an industry standard, American National Standard Institute
           (ANSI)/Electronic Industries Alliance (EIA) 748-A-1998 (R2002), “Earned Value
           Management Systems,” issued by the American National Standard Institute,
           August 28, 2002 (the Standard). The Standard establishes 32 minimum
           management control guidelines for an EVM system to ensure the validity of the
           information for management use. Using the Standard, DoD, the Federal Aviation
           Administration, and the National Aeronautics and Space Administration
           developed the “EVM Implementation Guide,” October 3, 1997. The EVM
           Implementation Guide provides uniform procedures and guidance for
           implementing and monitoring of EVM systems. The EVM Implementation Guide
           was revised and approved in October 2006 by the Director, Defense Contract
           Management Agency, the DoD executive agent for EVM systems. Additionally,
           the “Defense Acquisition Guidebook,” December 20, 2004, provides program
           managers guidance on the applicability of EVM.

                  EVM Use. EVM is a widely accepted industry best practice for project
           management that is used across DoD, the Federal Government, and the
           commercial sector. EVM is an integrated management system that coordinates
           the work scope, schedule, and cost goals of a program or contract, and measures
           the progress toward those goals. Managers use the EVM tool to:

                    •   quantify and measure program and contract performance,

                    •   provide an early warning system for deviating from a baseline,
                    •   mitigate risks associated with cost and schedule overruns, and

3
    The data presented in the program office analysis table were prepared by the C-17 program office and do
    not represent exact costs.



                                                      4
            •   provide a means to forecast final cost and schedule outcomes.

     The EVM Implementation Guide requirements for EVM use exempt firm-fixed-
     price contracts and subcontracts. The rationale is that higher risk contracts
     warrant EVM management, and firm-fixed-price contracts may not be the
     appropriate contract vehicle in these cases. The use of firm-fixed-price contracts
     is typically limited to mature, lower-risk production work, and the risks do not
     warrant EVM to manage contract performance. Higher-risk development work is
     usually accomplished with cost-type contracts, which require EVM.

     Use of EVM on the Sustainment Contract. C-17 program officials used EVM
     applications to revalidate the fairness and reasonableness of the price for the C-17
     GSP contract even though the contract was less than 20 percent complete. In
     addition, C-17 program officials used the EVM applications to validate the
     contract line item that was firm-fixed-price. A program office memorandum,
     “Re-validation of Price Reasonableness, Globemaster III Sustainment Partnership
     (GSP) Business Arrangement,” dated July 20, 2004, stated that for firm-fixed-
     price contract costs (CLIN 0001),
            The cost performance of the Globemaster III Sustainment Partnership
            (GSP) contract will be evaluated from an earned value management
            (EVM) perspective by reviewing the cost performance index (CPI) and
            the schedule performance index (SPI), which are both efficiency
            measures, the reasonableness of the estimate at comple[tion] (EAC)
            and Boeing’s expenditure projections.

     A Defense Contract Management Agency assessment of Boeing’s EVM system
     stated that the system is accurate. However, based on a review of the EVM data
     used by the C-17 program office to assess price reasonableness, a Defense
     Contract Management Agency EVM systems expert concluded that the EVM
     system was not an appropriate tool for performing fair and reasonable price
     validation on this contract. The EVM expert based the conclusion on the
     following information.
            •   Data in the contractor’s EVM system were “incomplete and showed a
                lack of discipline in recording information.” This reduces the
                credibility of the information and its use in analyzing and projecting
                costs.
            •   The C-17 GSP contract was only about 15 percent complete at the
                time of revalidation; contracts should be at least 20 percent complete
                to rely on EVM data for projecting estimated costs at completion.


Pricing Division Assessment
     The revalidation effort may have produced unreliable results because program
     officials did not sufficiently investigate available data prepared by others. The
     pricing division assessment did not agree with program office-prepared data and



                                            5
may not have supported the program office plan to definitize the originally
negotiated contract price.

Pricing Division Performed Independent Analysis. The Aeronautical Systems
Center Contracting Directorate, Pricing Division performed an independent
analysis of the actual cost data from Boeing using the basis of estimates from the
Flexible Sustainment Joint Model. The Flexible Sustainment Joint Model uses a
spreadsheet to align the basis of estimates with the corresponding contract line
items. The formulas in the spreadsheet calculate the estimated costs for those
contract line items and do not assess earned value. The pricing division analysis
estimated that fixed-price costs (all of CLIN 0001, which includes labor) for
FY 2004 would be about $68 million less than the negotiated value of the
contract, and this 16 percent projected underrun would become 19 percent
additional profit for Boeing. The pricing division analysis was based on 6 months
of actual FY 2004 data, which were used to project costs for the remaining
6 months in FY 2004.

                            Pricing Division Analysis

                                          Fixed Price Contract Costs
                                                (CLIN 0001)
          Negotiated target cost                $412,574,070


          Projected actual cost                 $345,027,739


        Projected dollar variance                $67,546,331
                (underrun)
     Percentage variance (underrun)               16 percent


        Projected additional profit               19 percent
                percentage


July 2004 Meeting to Discuss Options. C-17 program officials did not
sufficiently investigate available data prepared by others that did not agree with
program office-prepared data and that may not have supported the program office
plan to definitize the originally negotiated contract price. In mid July 2004, the
Secretary of the Air Force made the decision to proceed with the definitization of
the C-17 GSP letter contract on the basis of the program office recommendation.
The Deputy Chief of Contracting stated that on July 20, 2004, the pricing division
notified the Director of Contracting, Aeronautical Systems Command that the
award was not “smart.” The Deputy Chief of Contracting also stated that the
following day the Director of Contracting met with senior contracting personnel
and pricing personnel to discuss whether to reopen negotiations or proceed with
the contract definitization.


                                      6
           At the July 21, 2004, meeting, program office personnel stated that the contract
           was underrunning labor, on target for engines, and slightly underrunning on
           material. Program office personnel explained that Boeing would be able to “catch
           up” on the underruns as time progressed. Pricing personnel, however, specifically
           questioned charges against the fixed-price line item (CLIN 0001). The pricing
           analysis indicated that the actual labor hours would be significantly less than the
           estimated labor hours used in the negotiated agreement and that this cost element
           could underrun by $68 million. An internal memorandum prepared by a pricing
           division employee who attended the July 21, 2004, meeting indicated that the
           program office analysis claimed that labor costs through May 2004 were
           $120 million. The memorandum further stated that the Defense Contract Audit
           Agency audit stated that labor costs through March 2004 were $40 million,
           indicating that labor costs for the first 6 months were averaging $7 million per
           month and then increased to $40 million per month in April and May 2004.
           Program office files indicate that the program office had little notice of the pricing
           division data and was, therefore, unable to fully respond. Pricing division
           personnel did not raise any further objections to the program office continuing
           with the plan to definitize. The Director of Contracting, Aeronautical Systems
           Center had responsibility for the pricing division and stated that she did not have
           the authority to change the decision to definitize the C-17 GSP letter contract, and
           that she would require more proof to support stopping the definitization decision
           to the Secretary of the Air Force. On July 22, 2004, the program office
           definitized the letter contract and established the long-term business arrangements
           in accordance with the November 25, 2003, negotiated agreement.

           Post Discussions Analysis. A post-meeting program office analysis of the
           pricing data explained that the pricing data was in error because pricing personnel
           had used “unburdened” labor dollars from the Defense Contract Audit Agency
           audit when assessing Boeing’s cost performance. However, we confirmed with
           Defense Contract Audit Agency that the data reported in their audit results
           included only “burdened” 4 labor dollars.


Priced Option Years
           C-17 contracting officials continue to exercise priced options based, in part, on
           the results of the revalidation effort.

           Federal Acquisition Regulation Requirements. FAR 17.207, “Exercise of
           Options,” states that a contracting officer may exercise a contract option only
           after determining that the exercise of the option is the most advantageous method
           of fulfilling the Government’s need. The contracting officer shall consider price
           and other factors before making a determination on whether to exercise the option
           based on one of the following:

                    •   A new solicitation fails to produce a better price or a more
                        advantageous offer than that offered by the option….

4
    Burdened costs include direct labor, non-direct labor, labor overhead, overhead composite, general and
    administrative costs, and cost of money.



                                                       7
       •   An informal analysis of prices or an examination of the market
           indicates that the option price is better than prices available in the
           market or that the option is the more advantageous offer.

       •   The time between the award of the contract containing the option
           and the exercise of the option is so short that it indicates the option
           price is the lowest price obtainable or the more advantageous offer.
           The contracting officer shall take into consideration such factors as
           market stability and comparison of the time since award with the
           usual duration of contracts for such supplies or services.

The decision to exercise an option should also take into account the
Government’s need for continuity of operations and potential costs of disrupting
operations.

Option Year Prices Not Reviewed. Although C-17 contracting officials did not
violate the FAR requirements when they exercised priced options for FY 2005,
FY 2006, and FY 2007, they did not exercise prudent business practices.
Contracting officials documented the determination that the priced options were
the most advantageous method of meeting the Government’s need. However, the
documented decisions were not based on any analysis of any data and were not
supported. According to documentation in the contract files, each determination
to exercise the options for FY 2005–FY 2007 was based on the following
rationale.

       •   A new solicitation would likely fail to produce a better price or an
           overall more advantageous offer than that available through
           exercise of the available options….

       •   Initiating a competitive acquisition for the sustainment of the C-17
           fleet at this time is not feasible as Boeing is the sole-source
           manufacturer of the C-17 aircraft and is currently the only source
           that has the necessary data, expertise, and infrastructure to provide
           sustainment of the fielded aircraft. There would be significant
           transition costs associated with providing the necessary
           infrastructure and transferring the necessary material to a
           contractor other than Boeing.

       •   There have been no significant changes in the pricing assumptions
           for the Options since their negotiation….

The determination that “a new solicitation would likely fail to produce a better
price or an overall more advantageous offer than that available through exercise
of the available options” was not based on any analysis of actual contract costs or
prices for the option years. In addition, the documented determination states that
“while the Government would have the benefit of more recent ‘actuals’ in any
negotiation, new negotiations would open all the terms and conditions of the
25 Nov 03 agreed-to business arrangements into play.” However, it is possible
that Boeing and the Air Force could agree to reopen negotiations only on the price
element of the option. The Deputy Chief of Contracting confirmed that no
additional analyses were done and that the official contract file did not indicate


                                           8
    that any analyses of actual contract costs or prices for the option years had been
    performed.

    In the written determinations to exercise the options, C-17 contracting officials
    only addressed the costs associated with reopening negotiations; the
    determinations did not address any benefits associated with reopening
    negotiations. Consideration of the costs and benefits of the options are necessary
    to support a sound determination. In effect, the C-17 contracting officials did not
    determine with reasonable support that exercising these options was the best
    decision for the Government; in particular, the underruns estimated in 2004 by the
    pricing division prior to contract definitization suggest that the option prices
    should have been carefully reviewed to ensure that exercising the options was
    most advantageous to the Government.


Conclusion
    Even though the FAR does not dictate acceptable profit margin levels, both
    analyses indicate that the negotiated contract price may not have been fair and
    reasonable, and the Air Force may not have achieved the best price for the
    Government.

    The pricing division raised concerns about the negotiated price of the GSP
    contract and the concerns were not appropriately addressed before the contract
    was definitized. The Chief of Pricing stated that the process followed for the GSP
    contract was “clearly not right” and that the award was neither a good deal nor a
    bad deal, just not the best deal. He stated that Boeing is clearly making a high
    profit off this contact and he believes that the contract was set up to allow for this.

    The C-17 program office and the pricing division performed separate analyses to
    revalidate price reasonableness, and both analyses showed that projected contract
    costs would be less than the negotiated contract amount. The analyses prepared
    by the pricing division showed that the projected cost underruns for the fixed-
    price portion of the contract could result in as much as 19 percent more in profit.

    The Air Force definitized the C-17 sustainment contract, valued at $4.9 billion,
    and may not have achieved the best price for the Government. In addition, C-17
    contracting officials did not sufficiently support their conclusions that exercising
    the priced option years at the original negotiated prices was most advantageous to
    the Government. Because of the information indicating a potential cost underrun,
    we believe a thorough review of cost data should be conducted before the FY
    2008 option is exercised to determine whether the price is still reasonable and a
    new proposal should be obtained to determine option prices for FY 2009–
    FY 2011. The review should include documented analysis to support the
    decision. In addition, since the data indicated a potential underrun in the original
    negotiated price, we believe that Defense Contract Audit Agency should audit the
    contractor’s proposal for FY 2009–FY 2011 prices and also perform a post-award
    review of the original negotiated price.




                                          9
Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Aeronautical Systems Center, Air
    Force Materiel Command request the C-17 program officials determine
    whether to exercise contract options on the C-17 sustainment contract for
    option years FY 2008–FY 2011. Specifically,

           1. Conduct and document analysis to support the determination of
    price reasonableness and the basis of the determination before exercising
    priced option year FY 2008.

    Management Comments. The Assistant Secretary of the Air Force
    (Acquisition) concurred, stating that the C-17 program officials will conduct and
    thoroughly document the analysis performed to support the determination of price
    reasonableness in accordance with regulatory requirements. The Assistant
    Secretary also stated that the C-17 program officials plan to complete this action
    by August 29, 2007. Additionally, the Assistant Secretary stated the program
    officials plan to review their current processes for documenting and analyzing
    contract options prior to exercising.

    Audit Response. The comments are responsive, and no additional comments are
    required.

          2. Request that the contractor provide a proposal with certified cost
    and pricing data to support the pricing of option years FY 2009–FY 2011.

    Management Comments. The Assistant Secretary of the Air Force
    (Acquisition) concurred, stating that the C-17 program officials will ensure that
    the contractor provides certified cost or pricing data to support the FY 2009-
    FY 2011 priced proposal in accordance with Federal Acquisition Regulation
    15.403-4, “Subcontracting Pricing Considerations.” Additionally, the Assistant
    Secretary stated that the certified cost or pricing data will be examined and
    confirmed to be current, accurate, and complete in accordance with the Truth in
    Negotiations Act.

    Audit Response. The comments are responsive, and no additional comments are
    required.

           3. Request that the Defense Contract Audit Agency:

               a. Audit the contractor’s proposal for FY 2009–FY 2011, and

    Management Comments. The Assistant Secretary of the Air Force
    (Acquisition) concurred, stating that the C-17 program officials will request that
    the Defense Contract Audit Agency perform a pre-award audit to support the
    price reasonableness of the FY 2009-FY 2011 contractor’s proposal prior to the
    FY 2009 contract option. The Assistant Secretary stated that they plan to
    complete this action 31 days after receipt of the contractor’s proposal on
    August 1, 2008.


                                         10
Audit Response. The comments are responsive, and no additional comments are
required.

           b. Perform a post-award review of the original negotiated price
              for the C-17 Globemaster III Sustainment Partnership
              contract.

Management Comments. The Assistant Secretary of the Air Force
(Acquisition) concurred, stating that the Defense Contract Audit Agency agreed
to consider expanding the current post-award audit to address the concerns of this
audit report.

Audit Response. The comments are responsive, and no additional comments are
required.




                                    11
Appendix A. Scope and Methodology
    We evaluated whether the C-17 Globemaster III Sustainment Partnership contract
    negotiations and award were conducted in accordance with the FAR. We focused
    the review on the revalidation of price reasonableness done by the C-17 program
    officials and the analysis done by the Aeronautical Systems Center Pricing
    Division prior to the definitization of the C-17 Globemaster III Sustainment
    Partnership contract with Boeing.

    We collected, reviewed, and analyzed documents dated from March 2003 through
    December 2006. Specifically, we evaluated acquisition and contracting
    documents that the Air Force used to support the definitization of the C-17
    Globemaster III Sustainment Partnership contract.

    We interviewed contracting and logistics personnel at the C-17 program office at
    Wright-Patterson Air Force Base. We also interviewed contracting and
    acquisition support personnel at the Aeronautical Systems Center at Wright-
    Patterson Air Force Base.

    We reviewed applicable contracting regulations including the FAR, the Defense
    Federal Acquisition Regulation Supplement, and the Air Force Federal
    Acquisition Regulation Supplement. We also reviewed selected guidance on
    EVM systems.

    We performed this audit from July 2006 through January 2007 in accordance with
    generally accepted government auditing standards.

    The scope of the review was limited to the decisions and transactions that
    occurred prior to the definitization of the C-17 sustainment contract.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not require technical assistance for the
    execution of this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Contract Management high-risk area.


Prior Coverage
    During the last 5 years, the DoD Inspector General (IG) and the Air Force Audit
    Agency (AFAA) have issued three reports discussing the C-17 Globemaster III
    Sustainment Partnership contract. Unrestricted DoD IG reports can be accessed
    at http://www.dodig.mil/audit/reports. Unrestricted AFAA reports can be
    accessed at www.afaa.hq.af.mil.



                                        12
DoD IG
    DoD IG Report No. D-2006-101, “Procurement Procedures Used for C-17
    Globemaster III Sustainment Partnership Total System Support,” July 21, 2006


Air Force
    AFAA Report No. F2002-0002-C06400, “C-17 Integrated Product Team
    Participation (Phase IV),” February 6, 2002

    AFAA Report No. F2002-0001-C06400, “C-17 Integrated Product Team
    Participation (Phase III),” December 7, 2001




                                      13
Appendix B. Defense Hotline Allegations
   Allegations. C-17 program officials provided inaccurate and misleading
   information to the Secretary of the Air Force, leading to a misinformed decision
   to formally award the $4.9 billion GSP contract to Boeing.

   C-17 program officials took action to prevent the formulation of information that
   may have contradicted that the negotiated prices for the GSP contract were still
   fair and reasonable based on an analysis of actual costs to date.

   History. The Air Force reached a negotiated agreement with McDonnell Douglas
   Corporation to sustain the fleet of C-17 aircraft on November 25, 2003, in the
   amount of $4.9 billion for FY 2004–FY 2008. However, the contract was not
   definitized until July 22, 2004. Prior to contract definitization, C-17 program
   officials took action to revalidate the negotiated contract to ensure the price was
   still fair and reasonable.

   Audit Results. The allegations were not substantiated. The C-17 program
   officials:

          •   adhered to FAR guidelines in negotiating and awarding the C-17
              sustainment contract,

          •   initiated actions to make sure the C-17 sustainment contract price was
              still fair and reasonable prior to definitization,

          •   used qualified personnel to negotiate the C-17 sustainment contract
              price and took action to revalidate the reasonableness of the contract
              price, and

          •   did not prevent the collection or formulation of information that may
              have contradicted the reasonableness of the GSP negotiated price.




                                       14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Aeronautical Systems Center

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      16
Department of the Air Force Comments




                     17
18
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Carros
Tamonie D. Denegall
Gloria A. Young
Chad J. Evans
LeBarron A. Durant
Kimberly A. Christensen
Meredith H. Johnson




                                   19
